No. 20-5959
IN THE SUPREME COURT OF THE UNITED STATES
_________________
CLINTON DEVONE HICKS, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MEMORANDUM FOR THE UNITED STATES, via email and by first-class mail,
postage prepaid, this 13th day of November, 2020.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 13, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-5959
HICKS, CLINTON DEVONE
USA

CHRISTOPHER A. CURTIS
ASSISTANT FEDERAL PUBLIC DEFENDER
FEDERAL PUBLIC DEFENDERS OFFICE
819 TAYLOR STREET
ROOM 9A 10
FORT WORTH, TX 76102
817-978-2753
CHRIS_CURTIS@FD.ORG

